UNITED STATES AGENCY FOR INTERNATIONAL DEVELOPMENT

      OFFICE OF INSPECTOR GENERAL

                 FOR THE

   MILLENNIUM CHALLENGE CORPORATION

          SEMIANNUAL REPORT

           TO THE CONGRESS





       October 1, 2007 - March 31, 2008

                                Inspector General

                 HOTLINE
   OIG’s Hotline makes it easy to report allegations of fraud,
   waste, abuse, mismanagement or misconduct in programs
   and operations of the USAID, USADF, IAF, and MCC.
   Employees, contractors, program participants and the
   general public may report allegations directly by e-mail,
   telephone, or mail to:

   Phone                 1	 -202-712-1023
                          1-800-230-6539


   E-mail 	 ig.hotline@usaid.gov



   Mail                  	 SAID OIG HOTLINE
                         U
                         P.O. Box 657
                         Washington, DC 20044-0657


U.S. Agency for International Development
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20523
www.usaid.gov
CONTENTS

Message from the Inspector General ................................................................................................v



Executive Summary ..............................................................................................................................1



Summary of Results .............................................................................................................................3


           Strategic Goal 1: Strengthen the economy, effectiveness, and efficiency

           of foreign assistance programs and operations ..................................................................3


           Strategic Goal 2: Protect U.S. foreign assistance programs and operations

           from fraud, waste, and abuse..................................................................................................7


           Strategic Goal 3: Continually improve OIG functions and operations ...........................9



Appendices - Reporting Requirements ...........................................................................................13





                                                                                                SEMIANNUAL REPORT TO THE CONGRESS                    iii
MESSAGE FROM THE
INSPECTOR GENERAL
I
    am pleased to present the Semiannual Report to the     Overall, the Office of Inspector General (OIG) for
    Congress for the 6-month period ending                 MCC issued 10 audits over the past 6 months. In this
    March 31, 2008. This report is issued in accordance    semiannual report, we share the highlights of our work,
with the requirements of the Inspector General             as well as comprehensive statistics and data.
Act of 1978, as amended, and specifically addresses
our responsibilities for the Millennium Challenge          OIG is committed to assisting MCC with improving
Corporation (MCC).                                         foreign assistance programs, which are an essential
                                                           component of the administration’s transformational
MCC is an independent Government corporation,              diplomacy goals in the advancement of sustainable
established in January 2004 to strengthen and expand the   development and global interests.
U.S. Government’s foreign assistance programs with an
innovative approach. That approach focuses on building     We look forward to working with Congress, MCC, and
partnerships with countries and on producing results to    our international partners to continue to improve the
reduce poverty through economic growth. The activities     efficiency and effectiveness of U.S. foreign assistance
of the corporation are based on the principle that aid     programs.
is most effective when targeted to developing countries
that have good governance and economic freedom and
that invest in their people.




                                                                     Donald A. Gambatesa

                                                                     Inspector General





                                                                          SEMIANNUAL REPORT TO THE CONGRESS          v
EXECUTIVE SUMMARY

D        uring this reporting period, OIG completed             • 	 Fund Accountability Statement Audit Activity.
         audits involving the following program areas:              Audits of incurred costs were conducted for
                                                                    MCC-funded programs in Benin, Georgia,
                                                                    Honduras, Madagascar, Nicaragua, and Vanuatu.
                                                                    Except for Vanuatu, each audit contained an
Strategic Goal 1: Strengthen the economy,
                                                                    unqualified opinion.
effectiveness, and efficiency of foreign
assistance programs and operations
                                                            Strategic Goal 2: Protect U.S. foreign
Under strategic goal 1, OIG focused on audits that          assistance programs and operations from
involved MCC-funded initiatives in Africa, Asia,            fraud, waste, and abuse
Eurasia, and Latin America, as well as oversight of
MCC’s financial accountability, internal controls, and      Audit activity under strategic goal 2 included MCC’s use
procurement activities.                                     of purchase cards and its management of interagency
                                                            agreements. Audits conducted and significant findings
Audits conducted and significant findings and               and recommendations include the following:
recommendations include the following:
                                                                • 	 Audit of MCC’s Use of Purchase Cards. OIG
    • 	 Audit of MCC’s Financial Statements, Internal               conducted an audit to determine whether MCC
        Controls, and Compliance for the Periods                    had established controls and properly managed
        Ending September 30, 2007, and 2006.                        the use of its purchase cards and found that
        Although MCC financial statements were found                overall it had done so. However, OIG did
        to be presented fairly and in conformity with               identify several areas where MCC could improve
        accounting principles, two material weaknesses              its purchase card controls, such as obtaining
        and two instances of noncompliance were                     waivers for State and local taxes on purchases
        identified.                                                 and ensuring that staff training requirements are
    • 	 Audit of MCC Programs in Madagascar. The                    met.
        goals or anticipated results of the compact in          • 	 Audit of MCC’s Management of Its Interagency
        Madagascar are to increase incomes in rural                 Agreements. OIG is currently conducting
        areas by enhancing land security, increase                  an audit of MCC’s overall management of
        competition in the financial sector, and increase           its interagency agreements, including internal
        investment in farms and other rural businesses.             controls, roles and responsibilities, and
        OIG identified several problems with oversight              training operations. The audit is reviewing
        and performance reporting and made                          MCC practices to ensure compliance with
        recommendations for improving oversight and                 Governmentwide standards related to the
        guidance to field offices; revising performance             management of interagency contracting.
        targets; and issuing guidelines related to data
        collection, reporting, and testing for accuracy.

    • 	 Audit of Compliance with Procurement
        Requirements by MCC and Its Compact
        Countries. OIG found that MCC partially
        complied with contractor eligibility guidance.
        The audit report recommended several
        improvements related to the contractor vetting
        process, as well as a recommendation to analyze
        whether procurement operations manuals were
        cost-effective and beneficial to operations.


                                                                           SEMIANNUAL REPORT TO THE CONGRESS            1
    Strategic Goal 3: Continually improve OIG
    functions and operations

    Under strategic goal 3, OIG continues to improve its
    management information systems, having implemented a
    new Criminal Law Enforcement Records System during
    this reporting period.

    This system will improve efficiencies by (1) allowing
    domestic and overseas users to access real-time
    information and to produce ad hoc reports;
    (2) automating case data for all administrative, civil, and
    criminal investigations; and (3) providing for possible
    future integration of systems.




2   SEMIANNUAL REPORT TO THE CONGRESS
SUMMARY OF RESULTS

   Strategic Goal 1:
   Strengthen the economy, effectiveness, and efficiency of foreign assistance programs
   and operations



M           CC programs are defined as high-risk
            because they are evolving quickly in foreign
            environments and are disbursing funds under
the direction of local recipient organizations that have
little or no experience managing funds in compliance
                                                                              deficiencies, which are noted as material weaknesses:
                                                                              (1) MCC did not fully comply with the Federal Financial
                                                                              Management Improvement Act, and (2) it lacks written
                                                                              policies and procedures related to financial reporting,
                                                                              accountability, and document control.
with U.S. Government standards. The Inspector
General for MCC has placed a high priority on compact                         Tests of compliance with certain laws, regulations,
programs1 in order to have the greatest impact on                             contracts, and grant agreements disclosed two instances
strengthening MCC’s foreign assistance programs in                            in which MCC did not comply fully with Federal
their early stages of implementation. Improvements                            Financial Management Improvement Act or the Federal
to programs identified from early compact audits are                          Information Security Management Act. Both were
often used as models to enhance effectiveness in other                        instances of material noncompliance.
programs.
                                                                              Audit of MCC Programs in Madagascar
Some audits, such as the Financial Statement Audit
required by the Government Performance and Results                            Madagascar was the first country to receive a compact,
Act, provide accountability in the administration of                          signing a 4-year, $110 million agreement. The goal of
U.S. taxpayer funded programs with the purpose of                             the compact was to increase incomes in rural areas by
testing economy, effectiveness, and efficiency in MCC’s                       enhancing land security, competition in the financial
operations.                                                                   sector, and investment in farms and other rural
                                                                              businesses. The Government of Madagascar designated
Audit of MCC’s Financial Statements, Internal                                 the Millennium Challenge Account (MCA)–Madagascar
Controls, and Compliance for the Periods                                      as the entity that would have the legal authority to
Ending September 30, 2007, and 20062                                          oversee the implementation of the compact programs
                                                                              during the agreed-upon period.
OIG conducted an audit of MCC’s financial
statements, internal controls, and compliance                                 To track the progress of each project, MCA-Madagascar
with law and regulations for the periods ending                               and MCC prepared a monitoring and evaluation plan
September 30, 2007, and 2006. The audit found that                            and a work plan to establish indicators, targets, and
MCC’s financial statements are presented fairly in all                        milestones by which they could compare the results and
material respects, and in conformity with generally                           measure achievements.
accepted U.S. Government accounting principles.

However, with respect to MCC’s internal controls over
financial reporting and its operations, the audit disclosed
two matters that OIG considers to be significant



1.	 A compact is a multiyear grant agreement between MCC and an eligible country to fund specific programs targeted at reducing poverty and stimulating
    economic growth.
2.	 Audit report number M-000-08-001-C, issued November 9, 2007.



                                                                                                  SEMIANNUAL REPORT TO THE CONGRESS                       3
    The audit reached the following conclusions:                  Audit of Compliance with Procurement
                                                                  Requirements by MCC and Its Compact
        • 	 MCC provided limited oversight to ensure that         Countries
            MCA-Madagascar and the four field offices
            visited by the audit team fully understood the        The MCAs for Armenia, Ghana, and Honduras
            importance of a consistent data collection            represent grants of approximately $236 million,
            methods and the definition of the project             $547 million, and $215 million, respectively, to these
            indicators in the monitoring and evaluation plan.     countries to increase economic growth and reduce
                                                                  poverty. Many of these funds are expended by the
        • 	 Initial key activities in MCA-Madagascar’s            MCAs on contracts for goods and services, and MCA
            programs took longer to accomplish than               procurement operations must function according to the
            originally anticipated. These delays now              requirements set forth by MCC. Compliance with MCC
            hinder MCA-Madagascar from achieving its              standards for determining eligibility to receive contract
            performance milestones and targets.                   funds is an important safeguard in preventing fraud and
                                                                  corruption. Compliance also prevents funds from being
        • 	 Reporting to MCA-Madagascar’s stakeholders
                                                                  awarded to contractors that have known ties to terrorist
            did not always provide complete and accurate
                                                                  organizations. OIG conducted this audit to determine
            information of the achieved results of the
                                                                  whether MCC and its compact countries complied with
            compact programs in Madagascar.
                                                                  MCC procurement requirements.
    The report contained five recommendations to MCC
                                                                  The audit found that the three MCAs complied with
    to address the program implementation findings:
                                                                  selected key procurement provisions from MCC’s
    (1) Develop guidelines that will enable the MCA staff to
                                                                  program procurement guidelines by advertising
    provide more oversight and guidance to its field offices;
                                                                  bidding opportunities, issuing requests for proposals,
    (2) reassess and revise targets for the finance project and
                                                                  conducting independent evaluation of the proposals, and
    document the new targets in a revised monitoring and
                                                                  documenting contracting actions. However, although
    evaluation plan by March 31, 2008; (3) issue guidelines
                                                                  each of the MCAs was aware of MCC contractor
    that describe how the MCA office should document
                                                                  eligibility guidance, the MCAs only partially complied
    the collection of data, report the data, and verify
                                                                  with the guidance. Also, at the time of audit, MCC
    project indicators to its field staff before the project
                                                                  did not have in place comprehensive written policies
    implementation phase; (4) issue guidance on how the
                                                                  and procedures for the MCAs to determine contractor
    MCA offices should verify prior data before importing
                                                                  eligibility. As a result, MCC cannot be assured that the
    them into a new database system and how MCC staff
                                                                  MCAs are awarding contracts only to eligible parties.
    should test the accuracy of the data during site visits;
    and (5) disclose the effective date of the information
    being used in reports to stakeholders.

    (Audit Report No. M-000-08-001-P)




4   SEMIANNUAL REPORT TO THE CONGRESS
 Photograph of the Armenia Road Project, which is in the process of         Photograph of a road-paving project in Armenia that is in the early 

 procuring services to pave roads such as the local roads visited by OIG    stages of procurement.

 auditors.




The report contained five recommendations, which                           The results of these audits assist MCC in monitoring its
included developing policies, procurement procedures,                      assistance program. When an audit identifies questioned
and other guidelines to improve adherence to and                           costs, OIG will recommend that MCC make a
monitoring of the contractor vetting process. Another                      management decision on the questioned costs. For costs
recommendation involved an analysis of whether                             MCC determines to be unallowable, MCC must request
procurement operations manuals provide benefit in                          and verify that the government of the recipient country
terms of operational controls, user necessity, and                         return the funds to the MCC-funded program.
succession planning and whether the documents should
be required by MCA implementing entities.                                  As of March 31, 2008, OIG had issued 15 fund
                                                                           accountability statement audit reports, 6 during this
(Audit Report No. M-000-008-02-P)                                          reporting period. All recommendations issued in fiscal
                                                                           year 2007 are closed, and $21,835 in questioned costs has
New Procedures for Managing                                                been resolved.
Recommendations Arising from Financial
Audits of Compacts                                                         Fund Accountability Statement Audits

MCC and OIG established revised practices for issuing                      During the reporting period, audits of incurred costs
and resolving procedural recommendations arising from                      were issued for MCC-funded programs in Benin,
fund accountability statement audits. Using the new                        Georgia, Honduras, Madagascar, Nicaragua, and
procedures, management decisions and final actions were                    Vanuatu. Except for Vanuatu, each audit contained an
reached on 18 outstanding recommendations.                                 unqualified opinion. OIG issued no recommendations
                                                                           in its audits of compacts with Honduras, Madagascar,
MCC requires financial audits, or fund accountability                      and Vanuatu.
statement audits, at least annually of all of its compact
programs; however, most of the financial audits are
conducted semiannually. These audits are conducted by
local audit firms approved by OIG. OIG supervises the
audits and issues the final audit with recommendations
addressed to MCC. MCC must then obtain from the
recipient country an action plan designed to correct the
internal control and compliance deficiencies identified in
the audit reports.



                                                                                               SEMIANNUAL REPORT TO THE CONGRESS                    5
    Benin                                                                          Nicaragua

    The latest audit covered incurred costs of $1,678,694                          OIG issued its second audit of the compact with
    of the $307 million grant. The auditors identified two                         Nicaragua on February 23, 2008, covering incurred costs
    significant deficiencies, one of which is considered                           of $3,254,232 of a $175 million compact. No material
    a material weakness in the internal control structure.                         weaknesses were identified. The audit identified one
    In addition, the auditors identified multiple material                         internal control deficiency that was still outstanding at
    instances of noncompliance. OIG issued two                                     the close of the reporting period concerning the need
    recommendations. MCC took final corrective action                              for additional documentation.
    for one recommendation during the current reporting
    period. The other recommendation, related to                                   (Audit Report No. M-000-08-006-N)
    noncompliance issues, remains outstanding.

    (Audit Report No. M-000-08-004-N)

    Georgia

    The audit covered $12,700,446 in incurred costs of
    a $295.3 million compact. The audit contained one
    recommendation to address several findings regarding
    internal control deficiencies in the area of posting of
    transactions and accounting software.

    (Audit Report No. M-000-08-001-N)




                     SUMMARY OF FUND ACCOUNTABILITY STATEMENT OPINIONS

                             FOR 6 MONTHS ENDING MARCH 31, 2008


                                              Value of Compact/                               Date of Most                          Auditor’s
              Country                         Length of Compact                               Recent Audit                          Opinion
      Georgia
                         $295.3 million/5-year
                           October 18, 2007
                           Unqualified


      Honduras                         $215 million/5-year                              October 31, 2007                            Unqualified

      Madagascar                       $110 million/4-year                              November 15, 2007                           Unqualified

      Benin                            $307 million/5-year                              December 12, 2007                           Unqualified

      Vanuatu                          $69.65 million/5-year                            January 7, 2008                             Qualified3

      Nicaragua                        $175 million/5-year                              February 22, 2008                           Unqualified




    3. This opinion was qualiﬁed because the audit ﬁrm did not meet two auditing standards which did not affect the audit report.



6    SEMIANNUAL REPORT TO THE CONGRESS
     Strategic Goal 2:
     Protect U.S. foreign assistance programs from fraud, waste, and abuse




A        nother OIG responsibility is to prevent and
         detect fraud and abuse in MCC programs and
         operations. Through the conduct of audits
and investigations, as well as training and outreach,
OIG identifies and addresses any vulnerabilities and
                                                            OIG Conducts Fraud Awareness Training and
                                                            Financial Audit Briefings

                                                            As part of its proactive strategy, the OIG conducts fraud
                                                            awareness training and financial audit briefings. The
integrity concerns that place MCC programs at risk. The     fraud awareness training alerts personnel to fraudulent
following examples demonstrate how OIG reduces U.S.         schemes and practices so that they can prevent or reduce
foreign assistance programs’ exposure to fraud, waste,      fraud in MCC programs and operations. In addition,
and abuse.                                                  the OIG promotes its hotline and advises attendees of
                                                            methods and procedures to report potential fraud, waste,
Audit of MCC’s Use of Purchase Cards                        or abuse.

OIG conducted an audit to determine whether the MCC         MCC’s compacts, as well as various laws and regulations,
established controls and properly managed the use of its    define the types of costs that can be charged in
purchase cards.                                             support of its programs. To increase awareness and
                                                            compliance with cost principles, OIG conducts financial
The audit noted that overall, MCC had established           management training for independent audit firms
controls and properly managed the use of its                and others. The training provides a general overview
purchase cards by publishing a purchase card program        of MCA and contractor cost principles, and audit
manual, assigning duties for the approving officials        requirements. It also provides examples of concepts
and cardholders, requiring all cardholders to record        such as allowability, allocabilty and reasonableness of
all purchases on a purchase card log, and requiring         costs.
cardholders and approving officials to reconcile their
monthly statements. However, OIG identified certain         The following table is a summary of fraud awareness
areas where MCC could improve its overall purchase          and financial audit briefings conducted during this
card controls, such as by obtaining waivers for State and   reporting period.
local sales tax on purchases and meeting staff training
requirements. There were no recommendations in the
report, as MCC had taken corrective action during the
audit to resolve the issues identified by the auditors.




                                                                           SEMIANNUAL REPORT TO THE CONGRESS            7
                            FRAUD AWARENESS AND FINANCIAL AUDIT BRIEFINGS

                                      CONDUCTED WORLDWIDE

                                        AS OF MARCH 31, 2008


      Month                  Location           Sessions   Attendees       Briefing*         Professional Affiliation

        OCT                                                   Nothing to Report


        NOV                                                   Nothing to Report


        DEC         Bamako, Mali                   1          37                  FR     MCC Personnel


        JAN         San Salvador, El Salvador      3          258                 FR     MCC Personnel

         FEB        Cotonou, Benin                 1          100                 FR     MCC Personnel
                    Antananarivo, Madagascar       4          130                 FR     MCC Personnel
        MAR         Ulaanbaatar, Mongolia          1          40             FI and FR   Mongolia Institute of Certified Public
                                                                                          Accountants
                                                                                         MCA-Mongolia Fiscal Agent
                                                                                         8 Private Audit Firms
                                                                                         MCA Personnel

                    Ouagadougou, Burkina Faso      1          25             FI and FR   5 Private Audit Firms
                                                                                         MCA Personnel
                               TOTAL               11         590

    * FI – Financial Audit Briefing
    * FR – Fraud Awareness Briefing




8   SEMIANNUAL REPORT TO THE CONGRESS
      Strategic Goal 3:
      Continually improve OIG functions and operations



I    nternal OIG readiness is essential in order to realize
     effective results in terms of OIG’s commitment to
     strengthen the efficiency, economy, and effectiveness
of MCC’s programs and operations and to protect
them from fraud, waste, and abuse. It requires constant
                                                               EFFICIENCY THROUGH AUTOMATION
                                                               Significant automation efforts undertaken to make
                                                               the audit and investigative processes more efficient is
                                                               described below.
attention to and improvement of OIG’s infrastructure to
provide an organizational foundation that reduces risk to      Criminal Law Enforcement Records System
OIG staff security, systems, and, ultimately, effectiveness.   (CLERS)
Critical management systems include those related to
                                                               On March 1, 2008, OIG launched its paperless,
staff and organizational competency and performance
                                                               computerized Criminal Law Enforcement Records
and information management.
                                                               System (CLERS), a Web-based case file management
                                                               system used to store and process all case-related
EMPLOYEE SECURITY                                              information and statistics in connection with OIG
                                                               investigations. When fully operational, investigators
OIG Position Sensitivity and Risk Review                       will be afforded access to case data generated prior to
                                                               the implementation of CLERS that may be relevant to
During this reporting period, OIG completed an internal        ongoing investigations.
review of position sensitivity and public trust risk level
requirements for all U.S. direct hire positions. The
objectives of the review was to (a) ensure compliance
with Executive Order 12968, which requires that the
number of employees eligible for access to classified
information shall be kept to the minimum required
for the conduct of agency functions; and (b) ensure
compliance with 5 C.F.R. 731, which requires all
competitive service positions to be designated at a risk
level consistent with its potential for adverse impact to
the integrity and efficiency of the service.

The review resulted in the identification of specific
key positions requiring high-level security clearances
and a significant reduction in the level of security
clearance requirements for OIG positions overall.
On April 1, 2008, the Inspector General formally
approved OIG position sensitivity and public trust
level designations as a result of this review, and action
is being taken accordingly. Though the primary
benefit of this review is the reduced risk of security
infractions associated with a highly cleared workforce,
personnel security cost reductions and more timely staff
recruitment and placement are expected.




                                                                               SEMIANNUAL REPORT TO THE CONGRESS         9
               A
               P
               P
  REPORTING    E
REQUIREMENTS   N
               D
               I
               C
               E
               S

                   11
                        FINANCIAL AUDIT REPORTS ISSUED

                        October 1, 2007 through March 31, 2008

                                                                                                   Amount of
     Report        Date of                                                                          Findings        Type of
     Number        Report                                 Report Title                              ($000s)         Findings
                                           --PROGRAMS AND OPERATIONS-­
  M-000-08-001-C    11/09/07    Audit of the MCC’s Financial Statements Internal Controls, and
                                Compliance for the Period Ending September 30, 2007 and 2008

                                        --FOREIGN GOVERNMENT ENTITIES-­
  M-000-08-001-N   10/18/2007   Audit of the MCC Resources Managed by the Millennium Challenge
                                Georgia Fund, (MCG), under the Compact Agreement Between the
                                MCC and the Government of Georgia for the Period from
                                January 1, 2007 to June 30, 2007

  M-000-08-002-N   10/31/2007   Audit of the MCC Resources Managed by the Millennium Challenge
                                Account -Honduras (MCA-Honduras) Under the Compact
                                Agreement Between the MCC and the Government of Honduras
                                for the Period from January 1, 2007 to June 30, 2007

  M-000-08-003-N   11/15/2007   Audit of the Millennium Challenge Corporation (MCC) Resources
                                Managed by Millennium Challenge Account - Madagascar (MCA-
                                Madagascar), Under the Compact Agreement between the MCC and
                                the Government of Republic of Madagascar from January 1, 2007 to
                                June 30, 2007

  M-000-08-004-N   12/12/2007   Audit of the Millennium Challenge Corporation (MCC) Resources
                                Managed by Millennium Challenge Account - Benin (MCA-Benin),
                                Under the Compact Agreement between the MCC and the
                                Government of Republic of Benin from January 1, 2007 to
                                June 30, 2007

  M-000-08-005-N   01/7/2008    Audit of the MCC Resources Managed by the Millennium Challenge
                                Account-Vanuatu (MCA-Vanuatu), under the Compact Agreement
                                Between the MCC and the Government of Vanuatu from
                                April 28, 2006 to December 2006

  M-000-08-006-N   02/22/2008   Audit of the MCC Resources Managed by the Millennium Challenge
                                Account-Nicaragua (MCA-Nicaragua), under the Compact
                                Agreement Between the MCC and the Government of Nicaragua
                                from January 1, 2007 to June 30, 2007




                                                                                                    BU--Better Use of Funds
                                                                                                    QC--Questioned Costs
                                                                                                    UN--Unsupported Costs
                                                                                                    Note: UN is part of QC



Appendix A                                                                       SEMIANNUAL REPORT TO THE CONGRESS             13
                                 PERFORMANCE AUDIT REPORTS ISSUED

                                   October 1, 2007 through March 31, 2008

                                                                                                       Amount of
                                 Date of                                                                Finding    Type of
     Report Number               Report                            Report Title                         ($000s)    Findings
     M-000-08-001-P              12/28/07   Audit of the MCC Programs in Madagascar

     M-000-08-002-P              03/03/08   Audit of Compliance with Procurement Requirements by the
                                            MCC and its Compact
                                            Countries

     M-000-08-002-P              03/27/08   Audit of the MCC’s Use of Purchase Cards




      BU--Better Use of Funds

      QC--Questioned Costs

      UN--Unsupported Costs

      Note: UN is part of QC




14     SEMIANNUAL REPORT TO THE CONGRESS                                                                             Appendix A
                  MISCELLANEOUS AUDIT REPORTS ISSUED

                     October 1, 2007 through March 31, 2008

                                                                Amount of
                   Date of                                       Findings      Type of
  Report Number    Report           Report Title                 ($000s)       Findings




                               NOTHING TO REPORT





Appendix A                                          SEMIANNUAL REPORT TO THE CONGRESS     15
                     AUDIT REPORTS OVER SIX MONTHS OLD

                       WITH NO MANAGEMENT DECISION

                              As of March 31, 2008

                                                                                             Desired
                                                                                            Decision
     Report Number            Auditee         Issue Date   Current Recommendation Status   Target Date




                                          NOTHING TO REPORT





16    SEMIANNUAL REPORT TO THE CONGRESS                                                       Appendix B
                      SIGNIFICANT AUDIT RECOMMENDATIONS

                       DESCRIBED IN PREVIOUS SEMIANNUAL

                         REPORTS WITHOUT FINAL ACTION 

                                As of March 31, 2008

                                                                                                     Management   Final Action
    Report                                                          Recommendation         Issue      Decision       Target
    Number                     Subject of Report                        Number             Date         Date          Date
  M-000-05-003-P   Audit of the Millennium Challenge                        3             06/20/05     9/28/07        6/08
                   Corporation’s Compliance with Provisions of      Re-opened for the
                   the Federal Information Security Management         second time
                   Act of 2002
                                                                           8                            04/07        06/08

 M-000-06-001-C    Audit of the Millennium Challenge                       5.2            12/06/05     12/06/05      10/10
                   Corporation’s Financial Statements, Internal
                   Controls, and Compliance for the Period
                   Ending September 30, 2005 and the Nine
                   Month Period Ending September 30, 2004

  M-000-06-001-S   Review of the Millennium Challenge                      3              05/16/06     05/16/06      05/08
                   Corporation’s Progress in Achieving Its                 4                           05/16/06      10/10
                   Planned Organizational Structure and
                   Beginning Its Assistance Programs

  M-000-06-003-P   Audit of the MCC’s Compliance with the                  1              09/29/06     09/29/06       9/08
                   Provisions of the Federal Information Security
                   Management Act of 2002 for Fiscal Year 2006


  M-000-07-001-P   Audit of the MCC’s Due Diligence Review                 1              03/02/07     3/2/2007       5/08
                   Process Leading to Compact Awards

  M-000-07-002-P   Audit of the MCC’s Management of its                    1              07/26/07     7/26/07       07/08
                   Conditions Precedent in Its Compact                     2                           7/26/07       07/08
                   Agreements
                                                                           3                           7/26/07       07/08

  M-000-07-004-P   Audit of the MCC’s Compliance with the                  1              09/28/07     9/28/07        9/08
                   Provisions of the Federal Information Security          2                           9/28/07        5/08
                   Management Act for Fiscal Year 2007
                                                                           3                           9/28/07        5/08




Appendix C                                                                              SEMIANNUAL REPORT TO THE CONGRESS        17
                                 REPORTS ISSUED WITH QUESTIONED

                                     AND UNSUPPORTED COSTS

                                  October 1, 2007 through March 31, 2008

                                                                                 Number
                                                                                 of Audit            Questioned            Unsupported
                                    Reports                                      Reports               Costs                 Costs*
     A.   For which no management decision had been made as of                       0                 $ 21,835                $7,083
          October 1, 2007
     B.   Add: Reports issued October 1, 2007 through        March 31,               2                   $0                      $0
          2008
          Subtotal                                                                                     $ 21,835                $7,083
     C.   Less: Reports with a management decision made                              0                 $ 21,835                $7,083
          October 1, 2007 through March 31, 2008
          i.    Value of Recommendations Disallowed by Agency                        0                    $0                     $0
                Officials
          ii.   Value of Recommendations Allowed by Agency Officials                 0                 $ 21,835                $7,083

     D.   For which no management decision had been made as of                       0                    $0                     $0
          March 31, 2008

          * Unsupported Costs are included in Questioned Costs, but are provided as additional information as required by the Inspector
            General Act Amendments of 1988 (P.L. 100-504).




18        SEMIANNUAL REPORT TO THE CONGRESS                                                                                        Appendix D
             REPORTS ISSUED WITH RECOMMENDATIONS

                THAT FUNDS BE PUT TO BETTER USE

                October 1, 2007 through March 31, 2008

                                                         Number of
                     Reports                            Audit Reports      Dollar Value




                               NOTHING TO REPORT





Appendix E                                          SEMIANNUAL REPORT TO THE CONGRESS     19
          U.S.Agency for International Development 

                  Ofﬁce of Inspector General

                            for the

              Millennium Challenge Corporation 

                  1300 Pennsylvania Avenue, NW

                           Room 6.6D 

                     Washington, DC 20523

                      www.usaid.gov/oig




The Semiannual Report to the Congress is available on the Internet at 

           www.usaid.gov/oig/public/semiann/mcc1.htm

